Municipal LAW
&

LITIGATION

JOHN P. MACY
H. STANLEY RIFFLE
ERIC J. LARSON
REMZY D. BITAR
DALE W. ARENZ, RETIRED
DONALD S. MOLTER, JR., RETIRED

GROUP

730 N. GRAND AVENUE
WAUKESHA, WISCONSIN 53186
Telephone (262) 548-1340
Direct (262) 806-0212
Facsimile (262) 548-9211
Email: rbitar@ammr.net

PAUL E. ALEXY
MATTEO REGINATO
LUKE A. MARTELL
SAMANTHA ft SCHMIO
STEPHEN J. CENTINARIO, JR.
CHRISTOPHER R. SCHULTZ
ANTHONY J. GARCIA
SADIE R. ZURFLUH
MICHAEL J. MORSE
JAMES P. WALSH

February 4, 2021
Mr. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543

Re:

Pulera, Zachary v. Sarzant, Victoria et al., Case No. 20-977

Dear Mr. Harris:
This letter is written on behalf of Respondents Victoria Sarzant, Shane Gerber, Dennis
Zawilla, Bruce Clemens, Duane Corso, and Darron Newton (“County Defendants”) in this matter.
On January 14, 2021, Petitioner filed a Petition for Writ of Certiorari which was placed on the
docket on January 22, 2021. Pursuant to Rules 15.1, 15.5 and 20.5, because this case clearly does
not warrant review by the Supreme Court, these Respondents submit this letter to respectfully
inform the Court they do not intend to file a response to the Petition for Writ of Certiorari unless
requested by the Court to do so. The waiver form is enclosed.
Respectfully submitted,

Remzy D. Bitar,

Counsel of Record for Respondents Victoria
Sarzant, Shane Gerber, Dennis Zawilla, Bruce
Clemens, Duane Corso, and Darron Newton
(“County Defendants”)

cc: Counsel for Petitioner

MUNICIPAL LAW & LITIGATION GROUP, S.C.
ARENZ, MOLTER, MACY, RIFFLE, LARSON & BITAR

